O’Melveny & Myers LLP
1625 Eye Street, NW
Washington, DC 20006-4061

T: +1 202 383 5300
F: +1 202 383 5414
omm.com

November 20, 2020
VIA ELECTRONIC FILING

File Number:

Jonathan Hacker
D: +1 202 383 5285
jhacker@omm.com

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

CBX Resources, L.L.C. v. ACE American Insurance Company, et al., No. 20-478

Dear Mr. Harris:
I am Counsel of Record for Respondents in the above-captioned case. I write pursuant to
Supreme Court Rule 30.4 to respectfully request an extension of time of 30 days to file the
response to the petition for a writ of certiorari. The Court requested a response on November
10, 2020, and the response is currently due December 10, 2020. If the extension is granted, the
response would be due January 11, 2021.
The requested extension is justified for several reasons. This case involves issues with
significant stakes for the parties. Additionally, I have principal responsibility for the drafting of
Respondents’ brief in opposition, but was not involved with the proceedings below. The
additional time requested is therefore necessary for me to fully review the record, familiarize
myself with the issues involved, and prepare an adequate brief for Respondents. Further, in
addition to the upcoming holidays, I have multiple preexisting work conflicts during the current
briefing period that have interfered with and will continue to interfere with my review of
Petitioner’s petition and preparation of Respondents’ brief.
Thank you very much for your consideration. Please do not hesitate to contact me with any
questions or concerns.
Sincerely,
/s/ Jonathan D. Hacker
Jonathan D. Hacker
of O’MELVENY & MYERS LLP
Counsel for Respondents
cc: Mark A. J. Fassold, Counsel for Petitioner

Century City • Los Angeles • Newport Beach • New York • San Francisco • Silicon Valley • Washington, DC
Beijing • Brussels • Hong Kong • London • Seoul • Shanghai • Singapore • Tokyo

